No. 19-123
In the Supreme Court of the United
__________________

States

SHARONELL FULTON, ET AL., Petitioners,
v.
CITY OF PHILADELPHIA, PENNSYLVANIA, ET AL., Respondents.

__________________

On Writ of Certiorari to the United States Court
of Appeals for the Third Circuit

__________________

Brief of Children’s Rights; Professor Bruce Boyer; Center for
Children’s Advocacy; Center on Children and Families;
Children and Family Justice Center; Children’s Action
Alliance; Children’s Advocacy Institute; Children’s Defense
Fund; Children’s Defense Fund—New York; Children’s Law
Center of California; Children’s Law Center of Kentucky;
Court Appointed Special Advocates of Los Angeles; Professor
Michael J. Dale; First Star, Inc.; Harvard Law School Child
Advocacy Program; Juvenile Law Center; Lawyers For
Children; Legal Counsel for Youth and Children; Legal Services
for Children; National Association of Counsel for Children;
National Center for Youth Law; New Mexico Advocacy
Network; Partners for Our Children; University of Miami
Children and Youth Law Clinic; Youth Law Center; Professor
C. Colt Anderson; Pastor Susannah Davis; Episcopal Divinity
School at Union; Rabbi Steve Gutow; Hon. Ruth W. Messinger;
Rabbi Philip Rice; SAJ; Union Theological Seminary as
Amici Curiae Supporting Respondents

__________________

KENDYL T. HANKS
Counsel of Record
ELIZABETH “HEIDI” BLOCH
NICOLE LEONARD CÓRDOBA
GREENBERG TRAURIG, LLP
300 West 6th Street, Suite 2050
Austin, Texas 78701
(512) 320-7200
hanksk@gtlaw.com
Counsel for Amici Curiae

i
TABLE OF CONTENTS
TABLE OF AUTHORITIES. . . . . . . . . . . . . . . . . . . iii
STATEMENTS OF INTEREST OF
AMICI CURIAE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
I. Child Advocacy Organizations and Individuals . . 1
II. Members of the Interfaith Coalition for
Children’s Rights . . . . . . . . . . . . . . . . . . . . . . . . 12
SUMMARY OF ARGUMENT . . . . . . . . . . . . . . . . . 15
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 17
I. Recognizing a constitutional right for foster care
agencies not to comply with the antidiscrimination policies of the governments with
which they contract would harm the foster care
system and the children it serves . . . . . . . . . . . 18
A. Allowing discrimination against same-sex
couples narrows the pool of prospective foster
parents, harming both the public and foster
children in need of a loving home . . . . . . . . . 20
B. Foster children and the general public both
benefit from a broad and diverse pool of
prospective foster parents, including LGBTQ
people . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 25
C. Allowing discrimination against same-sex
couples harms the many LGBTQ youth in
foster care . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

ii
II. Abandoning Smith would invite challenges to
all manner of anti-discrimination laws
and policies, increasing the risk of harm to
children . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 32
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 33

iii
TABLE OF AUTHORITIES
CASES
Dumont v. Lyon,
341 F. Supp. 3d 706 (E.D. Mich. 2018) . . . . . . . 31
Employment Div., Dep’t of Human Res. of
Oregon v. Smith, 494 U.S. 872 (1990) . . 17, 32, 33
Heart of Atlanta Motel, Inc. v. United States,
379 U.S. 241 (1964). . . . . . . . . . . . . . . . . . . . . . . 31
Heckler v. Mathews,
465 U.S. 728 (1984). . . . . . . . . . . . . . . . . . . . . . . 31
Hollingsworth v. Perry,
570 U.S. 693 (2013). . . . . . . . . . . . . . . . . . . . . . . 25
Lintz v. Skipski,
25 F.3d 304 (6th Cir. 1994). . . . . . . . . . . . . . . . . 24
M.D. ex rel. Stukenberg v. Abbott,
907 F.3d 237 (5th Cir. 2018). . . . . . . . . . . . . . . . 23
Marisol A. ex rel. Forbes v. Giuliani,
929 F. Supp. 662 (S.D.N.Y. 1996). . . . . . . . . . . . 24
Marisol A. v. Giuliani,
126 F.3d 372 (2d Cir. 1997) . . . . . . . . . . . . . . . . 24
Masterpiece Cakeshop, Ltd. v. Colo. Civil
Rights Comm’n, 138 S. Ct. 1719 (2018) . . . . . . . 31
Nicini v. Morra,
212 F.3d 798 (3d Cir. 2000) . . . . . . . . . . . . . . . . 23
Obergefell v. Hodges,
576 U.S. 644 (2015). . . . . . . . . . . . . . 21, 22, 26, 33

iv
Perry v. Schwarzenegger,
704 F. Supp. 2d 921 (N.D. Cal. 2010). . . . . . . . . 25
Pietrangelo v. Refresh Club, Inc.,
No. 18-cv-1943 (DLF), 2019 WL 2357379
(D.D.C. Jun. 4, 2019) . . . . . . . . . . . . . . . . . . . . . 31
Roberts v. U.S. Jaycees,
468 U.S. 609 (1984). . . . . . . . . . . . . . . . . . . . . . . 18
Winter v. Nat. Res. Def. Council, Inc.,
555 U.S. 7 (2008). . . . . . . . . . . . . . . . . . . . . . . . . 19
OTHER AUTHORITIES
ADMIN. FOR CHILDREN & FAMILIES, U.S. DEP’T
HEALTH & HUMAN SERVS., LOG NO. ACYF-CBIM-11-03, LESBIAN, GAY, BISEXUAL,
TRANSGENDER AND QUESTIONING YOUTH IN
FOSTER CARE (2011),
https://wwwstage.acf.hhs.gov/sites/default/files
/cb/im1103.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . 29
Allison S. Bohm et al., Challenges Facing LGBT
Youth, 17 Geo. J. Gender & L. 125 (2016) . . 29, 30
AM. PSYCHOLOGICAL ASSOC., APA RESOLUTION ON
SEXUAL ORIENTATION, GENDER IDENTITY (SOGI),
P ARENTS AND THEIR C HILDREN (2020),
https://www.apa.org/about/policy/resolutionsexual-orientation-parents-children.pdf . . . . . . 27
Laura Baams et al., LGBTQ Youth in Unstable
Housing & Foster Care, PEDIATRICS, Mar. 2019,
e20174211 https://pediatrics.aappublications.org
/content/pediatrics/143/3/e20174211.full.pdf . . . 30

v
FRANK J. BEWKES ET AL., CTR. FOR AM. PROGRESS,
WELCOMING ALL FAMILIES: DISCRIMINATION
AGAINST LGBTQ FOSTER AND ADOPTIVE PARENTS
HURTS CHILDREN (2018), https://cdn.american
progress.org/content/uploads/2018/11/1913164
6/WelcomingAllFamilies.pdf. . . . . . . . . . . . . . . . 30
CHILDREN’S RIGHTS, LAMBDA LEGAL, AND CTR. FOR
THE STUDY OF SOC. POL’Y, SAFE HAVENS:
CLOSING THE GAP BETWEEN RECOMMENDED
PRACTICE AND REALITY FOR TRANSGENDER AND
GENDER-EXPANSIVE YOUTH IN OUT-OF-HOME
CARE (2017), https://www.lambdalegal.org/sites/
default/files/tgnc-policy-report_2017_finalweb_05-02-17.pdf . . . . . . . . . . . . . . . . . . . . . 29, 30
AMY DWORSKY ET AL., MISSED OPPORTUNITIES:
PATHWAYS FROM FOSTER CARE TO YOUTH
HOMELESSNESS IN AMERICA (Chapin Hill at the
Univ. of Chicago 2019), https://www.chapinhall
.org/wp-content/uploads/Chapin-Hall_VoYC_Child
Child-Welfare-Brief_2019-FINAL.pdf . . . . . . . . 29
Joseph Evall, Sexual Orientation and Adoptive
Matching, 25 FAM. L.Q. 347 (1991) . . . . . . . . . . 25
Rachel H. Farr et al., Parenting and Child
Development in Adoptive Families: Does
Parental Sexual Orientation Matter?, 14 APPLIED
DEVELOPMENTAL SCI. 164 (2010) . . . . . . . . . . . . 25
Nanette Gartrell & Henny Bos, US National
Longitudinal Lesbian Family Study:
Psychological Adjustment of 17-Year-Old
Adolescents, PEDIATRICS, Jul. 2010 . . . . . . . . . . 25

vi
Gary Gates et al., Adoption and Foster Care by Gay
and Lesbian Parents in the United States (Ca.
Ctr. for Population Res. On-Line Working Paper
Ser. No. CCPR-065-07, 2007), https://escholarship
.org/uc/item/3484484b. . . . . . . . . . . . . . . . . . . . . 22
GARY J. GATES & TAYLOR N. T. BROWN, WILLIAMS
INST.: UCLA SCH. OF L., MARRIAGE AND SAMESEX COUPLES AFTER OBERGEFELL (2015),
https://williamsinstitute.law.ucla.edu/wpcontent/uploads/Marriage-Post-Obergefell-Nov2015.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 21
GARY J. GATES, WILLIAMS INST.: UCLA SCH. OF L.,
DEMOGRAPHICS OF MARRIED AND UNMARRIED
SAME-SEX COUPLES: ANALYSES OF THE 2013
A MERICAN C OMMUNITY S URVEY (2015),
https://williamsinstitute.law.ucla.edu/wpcontent/uploads/Demo-SS-Couples-US-Mar2015.pdf . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22
Abbie E. Goldberg et al., LGBTQ Individuals’
Experiences with Delays & Disruptions in the
Foster and Adoption Process, 106 CHILDREN &
YOUTH SERVS. REV. 1 (2019) . . . . . . . . . . . . . . . . 28
SHOSHANA K. GOLDBERG & KEITH J. CONRON,
WILLIAMS INST.: UCLA SCH. OF L., HOW MANY
SAME-SEX COUPLES IN THE U.S. ARE RAISING
CHILDREN (July 2018), https://williamsinstitute.
law.ucla.edu/wp-content/uploads/ParentingAmong-Same-Sex-Couples.pdf . . . . . . . . . . . . . . 21
Joseph S. Jackson & Lauren G. Fasig, The
Parentless Child’s Right to a Permanent Family,
46 WAKE FOREST L. REV. 1 (2011) . . . . . . . . . . . 27

vii
Angeliki Kastanis et al., Same-sex Couple and
LGBT Demographic Data Interactive, WILLIAMS
INST .: UCLA S CH . OF L. (Jan. 2019),
https://williamsinstitute.law.ucla.edu/visualiza
tion/lgbtstats/?topic=SS&area=42#density . . . . 21
Frank Newport, LGBT Population in U.S.
Significantly Less Religious, GALLUP (Aug. 11,
2014), https://news.gallup.com/poll/174788/lgbtpopulation-significantly-less-religious.aspx . . . 23
Ellen C. Perrin & Benjamin S. Siegel, Promoting
the Well-Being of Children Whose Parents Are
Gay or Lesbian, PEDIATRICS, Apr. 2013, e1374,
http://pediatrics.aappublications.org/content/pe
diatrics/131/4/e1374.full.pdf . . . . . . . . . . . . . . . . 26
U.S. Catholics Open to Non-Traditional Families,
P EW R ESEARCH C TR . (Sept. 2, 2015),
https://www.pewforum.org/2015/09/02/u-scatholics-open-to-non-traditional-families. . . . . 23
Sarah Warbelow, LGBT Youth Legal Landscape, 23
TEMP. POL. & C.R. L. REV. 413 (2014) . . . . . . . . 30
Jordan Blair Woods, Religious Exemptions and
LGBTQ Child Welfare, 103 MINN. L. REV. 2343
(2019). . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29

1
STATEMENTS OF INTEREST OF
AMICI CURIAE1
I. Child Advocacy Organizations and Individuals
Children’s Rights is a national advocacy nonprofit dedicated to improving the lives of vulnerable
children in government systems. Children’s Rights has
a 25-year track record of using civil rights litigation,
policy expertise, and public education to create positive
systemic change. Children’s Rights has successfully
challenged unnecessary and harmful practices in the
over-institutionalization of children in state custody,
especially children who already have been traumatized
as a result of separation from their homes and families.
Children’s Rights has long advocated for the equitable
treatment of LGBTQ children in child welfare systems,
recognizing that they are often subjected to
discriminatory treatment and abuse. Children’s Rights
affirms the importance of actively recruiting LGBTQ
foster parents, not only to protect them from
discrimination, but also because they are an excellent
resource for safe and loving homes for all children.
Professor Bruce Boyer teaches at Loyola
University of Chicago School of Law, where he serves
as Director of the Civitas Child Law Clinic. He has
more than thirty years of experience teaching, writing,
and litigating in the areas of foster care and adoption,
focused on constitutional law, civil rights, and trial
1

No counsel for a party authored this brief in whole or in part,
and no monetary contributions by any persons other than Amici
Curiae funded the preparation of this brief. See Rule of the
Supreme Court of the United States 37.6. All parties have
consented to the filing of this brief. See id. 37(3)(a).

2
practice skills. He has served as Chair of the ABA’s
Special Committee on the Unmet Legal Needs of
Children, as Program Chair of the Board of the Evan B.
Donaldson Adoption Institute, and on the Illinois
Supreme Court Commission on Professionalism. His
interest in this litigation derives from his focus on
improving the effectiveness of child protection courts in
achieving just and durable outcomes for at-risk
children.
Center for Children’s Advocacy (CCA) is a nonprofit organization affiliated with the University of
Connecticut Law School and is dedicated to the
promotion and protection of the legal rights of poor
children. The children represented by CCA are
dependent on a variety of Connecticut state systems,
including judicial, health, child welfare, mental health,
education and juvenile justice. CCA engages in
systemic advocacy focusing on important legal issues
that affect a large number of children, helping to
improve conditions for abused and neglected children
in the state’s welfare system as well as in the juvenile
justice system. CCA works to ensure that children’s
voices are heard and that children are afforded legal
protections everywhere—community, foster
placements, educational institutions, justice system,
and child welfare.
Center on Children and Families (CCF) at the
University of Florida Fredric G. Levin College of Law
in Gainesville, Florida is an organization whose
mission is to promote the highest quality teaching,
research, and advocacy for children and their families.
CCF’s directors and associate directors are experts in

3
children’s law, constitutional law, criminal law, family
law, and juvenile justice, as well as related areas such
as psychology and psychiatry. CCF supports
interdisciplinary research in areas of importance to
children, youth, and families, and promotes childcentered, evidence-based policies and practices in
dependency and juvenile justice systems. Its faculty
has many decades of experience in advocacy for
children and youth in a variety of settings, including
the Virgil Hawkins Civil Clinics and Gator TeamChild
juvenile law clinic.
Children and Family Justice Center (CFJC),
part of Northwestern Pritzker School of Law’s Bluhm
Legal Clinic, was established in 1992 as a legal service
provider for children, youth, and families, as well as a
research and policy center. Currently, CFJC faculty
provide advocacy on policy issues affecting children in
the legal system, and legal representation for
children convicted of offenses, including in the areas of
delinquency, immigration/asylum, and fair sentencing
practices. Since 1992, the CFJC has filed numerous
briefs as an amicus curiae in federal and state supreme
courts based on its expertise in the representation of
children in the legal system.
Children’s Action Alliance (CAA) is an
independent voice for Arizona children at the state
capitol and in the community. CAA improves children’s
health, education and security through information and
action. CAA works toward a future in which all
children have health insurance, no child is raised in
poverty and hunger, every child enters school ready to
learn and succeed, no child endures the ravages of

4
abuse and neglect, every child has a place to call home,
and struggling teens have the support they need to
become responsible adults.
Children’s Advocacy Institute (CAI) is an
academic center at the University of San Diego School
of Law. It has educated law students in child rights
and remedies since 1989, including classes and clinics
representing abused children in dependency and
delinquency court. It is also a center for child advocacy,
with offices in Sacramento and D.C., active in studies
and national publications on the status of children,
particularly in the child protection area of law. CAI is
interested in protecting the rights of all suspect
classifications, including children who suffer
discrimination based on factors related to sex and
gender.
Children’s Defense Fund (CDF) is a national nonprofit child advocacy organization dedicated to
ensuring a level playing field for all children and to
championing policies that lift children out of poverty,
protect them from harm, and ensure their access to
health care, quality education, and safe communities.
For more than four decades, CDF has worked to reform
the public child welfare system to strengthen families
and ensure every child has the opportunity to thrive.
CDF knows discrimination is never in the best interest
of children because it is diametrically opposed to the
ideals of child welfare.
Children’s Defense Fund—New York (CDF-NY)
is dedicated to improving conditions for children,
combining research, public education, policy
development, community organizing and advocacy. A

5
recognized authority in the endeavor to protect children
and strengthen families, CDF-NY serves as a resource
and partner for children, families and organizations
throughout New York State.
Children’s Law Center of California is a nonprofit, public interest law firm that serves as appointed
counsel for children under the jurisdiction of juvenile
dependency courts in Los Angeles, Placer, and
Sacramento Counties. Children’s Law Center of
California is the largest children’s legal services
organization in the nation, representing over 33,000
abused and neglected children. Our attorneys provide
an unparalleled level of child advocacy expertise to
ensure the wellbeing and future success of each child.
Children’s Law Center of California is also a driving
force in local, state and national policy change and
child welfare system reform.
Children’s Law Center of Kentucky (CLC) has
worked on behalf of adolescents involved in the juvenile
justice and child welfare systems for over 30 years.
CLC is a non-profit organization committed to the
protection and enhancement of the legal rights of
children. CLC strives to accomplish this mission
through various means, including providing legal
representation for youth and advocating for systemic
and societal change. CLC supports recruitment of
LGBTQ foster parents as a means to ensure that
children are free from harm and provided with loving
homes.
Court Appointed Special Advocates of Los
Angeles (CASA/LA) recruits, trains, and supports
volunteers to advocate for the best interest of children

6
in the child welfare system. Our trained and committed
CASAs are a crucial support for children—connecting
them to services and advocating for their needs.
CASA/LA believes children deserve respect, safety,
access to supportive adults, and stability. We believe
that children in care should have the ability to live
with any family who meets these needs. CASA/LA
remains committed to equity for LGBTQIA+ people and
will always advocate for a child’s right to a stable and
healthy home.
Professor Michael J. Dale is a member of the
faculty at Nova Southeastern University College of
Law in Fort Lauderdale, Florida, where he teaches
courses in family law, juvenile law, and in the family
and juvenile clinic. Professor Dale was the Executive
Director of the Youth Law Center in San Francisco
after serving as Attorney in Charge of the Special
Litigation Unit of the Juvenile Rights Division of the
Legal Aid Society of the City of New York. He has been
a practicing lawyer specializing in significant civil
rights litigation for 40 years focusing on issues related
to children and their families. He is admitted to
practice in Arizona, Florida, New Mexico, and New
York as well as before the United States Supreme
Court and numerous federal appellate and district
courts. Professor Dale is the author of over seventy-five
articles focusing primarily on juvenile and children’s
law topics.
First Star, Inc. is a national 501(c)(3) public
charity dedicated to improving life for child victims of
abuse and neglect. First Star partners with child
welfare agencies, universities, and school districts to

7
ensure foster youth have the academic, life skills, and
adult support needed to successfully transition to
higher education and adulthood. Over the last three
years nationally, 91 percent of First Star Academy
graduates were admitted to colleges and universities.
First Star has extensive experience in each of our
twelve Academies in working successfully with LGBT
foster youth, and in addressing their special challenges
where necessary.
Harvard Law School Child Advocacy Program
(CAP) is a premier academic program focused on
children’s rights, primarily in the areas of child welfare
(abuse and neglect, foster care, and adoption),
education, and juvenile justice. CAP trains students to
contribute in their future careers to a better
understanding of the rights of children, and to law and
policy reform promoting children’s rights in the United
States and around the world. CAP’s Faculty Director,
Elizabeth Bartholet, is the Morris Wasserstein Public
Interest Professor of Law, and is a leading national
authority on child protection, foster care, and adoption
law.
Juvenile Law Center advocates for rights,
dignity, equity and opportunity for youth in the child
welfare and justice systems through litigation,
appellate advocacy and submission of amicus briefs,
policy reform, public education, training, consulting,
and strategic communications. Founded in 1975,
Juvenile Law Center is the first non-profit public
interest law firm for children in the country. Juvenile
Law Center strives to ensure that laws, policies, and
practices affecting youth advance racial and economic

8
equity and are rooted in research, consistent with
children’s unique developmental characteristics, and
reflective of international human rights values.
Lawyers For Children (LFC) is a not-for-profit
legal corporation dedicated to protecting the rights of
individual children in New York City and compelling
system-wide child welfare reform. Since 1984, LFC has
provided free legal and social work services to children
in more than 30,000 foster care, abuse, neglect,
termination of parental rights, adoption, guardianship,
custody and visitation proceedings. LFC’s LGBTQ
Rights Project addresses the needs of LGBTQ youth
and families by representing individual youth,
conducting trainings for practitioners, distributing our
You Are Not Alone handbook, coordinating resource
referrals, and collaborating with City agencies to
develop policies and practices designed to best meet
their needs.
Legal Counsel for Youth and Children (LCYC)
is a nonprofit civil legal aid organization that improves
the well-being of young people by advancing their legal
rights. LCYC accomplishes its mission through direct
representation, strong community partnerships, and
systemic advocacy. LCYC provides holistic, childcentered legal advocacy to young people, from toddlers
to 24 years old, in Washington State through four main
programs: child welfare, juvenile court, youth and
family immigration, and youth homelessness. LCYC
knows that the lack of supportive and appropriate
placements for LGBTQ+ foster youth has a direct,
negative impact on youth safety, mental health, and
well-being.

9
Legal Services for Children (LSC), founded in
1975 as a nonprofit organization, is one of the first nonprofit law firms in the country dedicated to advancing
the rights of youth. LSC’s mission is to ensure that all
children and youth in the San Francisco Bay Area have
an opportunity to be raised in a safe environment with
equal access to the services and support they need to
become healthy and productive young adults. This
mission is rooted in the belief that young people need
strong families and deserve positive alternatives to
unnecessary placement in foster care, juvenile justice
facilities, and immigration detention. We provide free
legal and social work services to children and youth in
abuse and neglect, guardianship, school discipline,
immigration, and emancipation proceedings. LSC
regularly represents abused and neglected children in
child protection proceedings and believes children in
the child welfare system have a fundamental right to
be free from discrimination on any basis.
National Association of Counsel for Children
(NACC), founded in 1977, is a 501(c)(3) non-profit child
advocacy and membership association dedicated to
advancing the rights, well-being, and opportunities of
youth in the child welfare system through access to
high-quality legal representation. A multidisciplinary
organization, its members include child welfare
attorneys, judges, and professionals from the fields of
medicine, social work, mental health, and education.
NACC’s work includes federal and state policy
advocacy, the Child Welfare Law Specialist attorney
certification program, a robust training and technical
assistance arm, and the amicus curiae program. More
information can be found at www.naccchildlaw.org.

10
National Center for Youth Law (NCYL) is a
private, non-profit organization that uses the law to
help children in need nationwide. For more than 40
years, NCYL has worked to protect low-income
children’s rights and to ensure they have the resources,
support, and opportunities necessary for healthy and
productive lives. As part of the organization’s child
welfare advocacy, NCYL works to ensure the safety,
stability, and wellbeing of abused and neglected
children. Denying children in foster care access to
LGBTQ foster and adoptive families—who can and do
provide healthy and stable foster and adoptive
homes—undermines these efforts.
New Mexico Advocacy Network (NMCAN)
partners with young people to build community,
promote equity, and lead change. Since 1990, we have
been leveraging community partnerships and
volunteerism to improve children and youth’s
experiences in foster care. Today, we have grown to
authentically engage young people impacted by the
foster care and/or juvenile justice systems to improve
their transition to adulthood. Together, we work to: 1.
Reduce systemic barriers that negatively impact their
lives; 2. Help them learn how to build positive
community networks and strengthen their sense of
belonging; 3. Access tools to achieve goals related to
education, employment, health, housing, and personal
finance. NMCAN believes that LGBTQ children and
youth in foster care, as well as LGBTQ foster parents,
should be treated equitably and protected from
discrimination.

11
Partners for Our Children works to improve the
lives of vulnerable children and families in Washington
State, especially those touched by the child welfare
system. Founded in 2007 to focus new thinking,
resources, and expertise on the state’s child welfare
system, we have since expanded our focus to include all
vulnerable children and families, with a clear emphasis
on child well-being. At Partners for Our Children, we
hold the value of equity in all programs and policies,
including for those who identify as LGBTQ. Especially
in our advocacy efforts, we champion the equitable
treatment of children who identify as LGBTQ and the
importance of LGBTQ foster parents who provide
loving homes for children.
University of Miami Children and Youth Law
Clinic (CYLC) is a legal clinic staffed by faculty and
students of the University of Miami School of Law. For
the past 25 years, the CYLC has engaged in individual
and law reform advocacy to serve the legal needs of
vulnerable children, with an emphasis on children in
the child welfare system. Many CYLC clients are
LGBTQ children who experience serious difficulties in
foster care, and a significant focus of our policy
advocacy is improving outcomes for these children
while in foster care and after their exit from care.
CYLC has appeared as amicus curiae in many federal
and state cases implicating the constitutional interests
of children, including a Florida appellate case striking
down the statutory ban on gays and lesbians adopting
children out of foster care.
Youth Law Center (YLC) is a national
organization, founded in 1978, that advocates to

12
transform the foster care and juvenile justice systems
so that children and youth can thrive. YLC has worked
to advance the rights of all young people in foster care
and strengthen protections and supports for LGBTQ
youth in the system through legislative, policy, and
amicus efforts. Because quality parenting is the most
important intervention that the child welfare system
provides to children in its care, YLC strongly backs
efforts to recruit and support foster families able to
provide such parenting, including LGBTQ families.
II. Members of the Interfaith Coalition for
Children’s Rights
Professor C. Colt Anderson is a member of the
faculty of the Graduate School of Religion at Fordham
University in New York City, where he teaches courses
on Catholic theology and spirituality. Professor
Anderson was the Dean of the Graduate School of
Religion and the Dean of Washington Theological
Union in Washington, D.C. The Vatican appointed him
to participate in the Apostolic Visitation of the U.S.
Seminaries in response to the sexual abuse crisis.
Professor Anderson has authored four books, 21
articles, and has worked for over 20 years on issues
related to religion, civil rights, and child welfare.
Pastor Susannah Davis serves as the Senior
Pastor of Kirkwood United Church of Christ (KUCC) in
Atlanta, GA, where “Everyone, Everyone, Everyone is
Welcome.” This congregation includes a diversity of
families, couples, and individuals who celebrate and
welcome LGBTQ families and their kids, their foster
kids, their adopted kids, their kids, who become their
kids, too. KUCC boldly believes that LGBTQ

13
individuals and couples should most certainly have the
right and privilege to participate in the foster/adoption
system, offering caring, committed and welcoming
homes to children in need of loving parents.
Episcopal Divinity School at Union (EDS at
Union) provides Episcopal theological education as the
Anglican Studies Program at Union Theological
Seminary. EDS at Union trains students called to
ordained and lay ministries, preparing them to
embrace ministries that reflect what it means to be
sanctuary and witness in contemporary society.
Carrying on its long history and mission of dismantling
racism and working for social justice, EDS at Union is
guided by the following core values: faith, social justice,
vision, inclusiveness, respect and integrity.
Rabbi Steve Gutow received his Juris Doctorate
in 1977 from The University of Texas, is a member of
the Texas Bar Association, and practiced with the firm
of Gutow, Albach, and Blume. Gutow served on the
state Board of the Texas ACLU and as chair of the
Dallas Civil Liberties Foundation and is a founding
member of the Interfaith Coalition for Children’s
Rights. Rabbi Gutow served in the 1980s as part of an
ad-hoc group that successfully established schools for
the children of undocumented residents when
Texas prohibited them from attending public
schools. From 2015 through 2016, Rabbi Gutow served
under President Obama as a member of the President’s
Advisory Council on Faith-based and Neighborhood
Partnerships, which looked at issues related to
children, civil liberties, health care, and education.

14
The Hon. Ruth W. Messinger, President,
American Jewish World Service, 1998-2016; currently
their Global Ambassador engaging faith leaders and
organizations to aid oppressed communities worldwide,
promote human rights, and stop violence against
women and LGBTQ people. Previously, Ms. Messinger
was an elected official in New York City, dealing
extensively with the rights of foster children and
LGBTQ persons. She is a Social Justice Fellow at the
Jewish Theological Seminary and at the Meyerson
JCC. She is a founding member of the Interfaith
Coalition for Children’s Rights.
Rabbi Philip Rice—spiritual leader of
Congregation Micah in Brentwood, Tennessee—lives
the prophetic call to: “Seek justice, practice mercy and
walk humbly.” Advocating for widows, orphans and
strangers, he speaks out when rights are denied to
young people, women, immigrants, the LGBTQI+
community, as well as other vulnerable groups across
the world. He has written critically on the dangers of
using Scripture such as the Bible (which was not
written in English) as a means to deny others their
religious freedoms, and lectures at Belmont and
Lipscomb Universities on layers of the biblical text and
Jewish methods of study.
SAJ is a diverse synagogue community in New York
City where all voices are valued and heard. We believe
that all human beings, regardless of race, religion,
gender, or sexual orientation deserve respect.
Congregants join together in response to current
sociopolitical events and engage in actions to foster
long-term local, national, and international changes. In

15
conjunction with allies from other faiths, the most
recent social justice work at SAJ centers on immigrant
and refugee rights, reproductive rights, hunger and
food insecurity, and criminal justice work that is
especially focused on the rights of LGBTQ individuals
who are incarcerated. At SAJ, Judaism stands for all.
Union Theological Seminary in the City of New
York is a seminary and a graduate school of religion,
grounded in the Christian tradition and embracing
interreligious engagement. Our unique educational
programs develop practices of mind and body that
encourage compassionate wisdom and foster academic
excellence and a commitment to social justice. Union
believes that a new interreligious spirituality of radical
openness and love is the world’s best hope for peace,
justice, and planetary flourishing.
SUMMARY OF ARGUMENT
As child advocacy organizations and members of the
Interfaith Coalition for Children’s Rights focused on
representing and protecting children’s rights, Amici
Curiae speak on behalf of the children throughout the
nation who will be profoundly and irreparably harmed
if the Court adopts the position that governmentcontracted foster care agencies have a constitutional
right to refuse prospective families based solely on
religious objections to those families.
Amici Curiae support Respondents as they seek to
protect the best interests of children in the foster care
system seeking placement with a diverse pool of safe
and loving families. Catholic Social Services (CSS), like
any other qualified foster care service provider, has the

16
opportunity to continue its contract with the City of
Philadelphia—but it demands the right to do so
without complying with the City’s anti-discrimination
policy.
Engaging in prohibited discrimination with
taxpayer funds while performing a delegated
government service intended to benefit children is not
in the public interest. Requiring the City to allow CSS
to do so by public contract would allow the varied
religious viewpoints of contracting private agencies to
unilaterally trump compelling governmental and
societal policies that prohibit harmful discrimination in
public services affecting children.
Here, granting the relief CSS seeks would cause
substantial harm to children in the foster care system.
Accepting CSS’s claim that government-contracted
foster care agencies have a constitutional right to
discriminate against qualified families that do not meet
the agency’s individual religious standards will hurt
children in foster care by unnecessarily reducing the
number of safe, stable placements available to them. It
would also invite challenges by faith-based government
contractors to a wide variety of government laws and
policies protecting families and children from
discrimination in the provision of government services.
Requiring the City contractually to allow agencies
to discriminate based on sexual orientation would also
send a harmful message to vulnerable children in
foster care—as well as potential LGBTQ foster
parents—that the City will not protect them from
discrimination. It would directly harm children in
foster care by reducing diversity in the pool of

17
prospective foster parents. And it would harm LGBTQ
youth—a demographic disproportionately represented
in the foster care system—by telling them that people
like them are not worthy of protection.
Finally, Employment Div., Dep’t of Human Res. of
Oregon v. Smith, 494 U.S. 872 (1990), sets forth the
reasonable, workable framework this Court has used
for decades to determine whether a law
unconstitutionally targets religious beliefs. Revisiting
Smith is unnecessary in this case, and to apply strict
scrutiny based on religious exercise regardless of
neutrality would open the door to challenges to
compliance with non-discrimination laws and other
neutral policies aimed at protecting the children for
whom Amici Curiae advocate. Although the City’s
policy would satisfy strict scrutiny review, the Court
need not—and should not—revisit Smith here.
ARGUMENT
Petitioners argue their religious beliefs prohibit
them from certifying same-sex couples as foster
families, and that asking them not to discriminate
while contracting with the City burdens their free
exercise of religion. But certifying and training foster
care parents is a government function. The City’s
willingness to contract with CSS to provide this
government service in exchange for taxpayer dollars
does not deprive Petitioners of their right to hold or
exercise their religious beliefs as private entities, nor
does it single out Petitioners based on their religious
status. It merely prevents CSS from performing that
delegated government function in a discriminatory
manner.

18
Amici Curiae’s concern is with the harmful
discrimination in which Petitioners seek to engage
while providing a public service. “[E]radicating
discrimination” is a compelling state interest, see
Roberts v. U.S. Jaycees, 468 U.S. 609, 623 (1984), yet
Petitioners seek to compel the City to allow them to
discriminate when they provide foster care services on
behalf of the City for the general public. Such statesanctioned discrimination would cause great harm to
children in care, to the families seeking to provide safe
and diverse placement opportunities, and to the foster
care program itself. That concern is particularly
heightened here where CSS seeks a categorical license
to discriminate against LGBTQ people contrary to the
City’s neutral policy.
I. Recognizing a constitutional right for foster
care agencies not to comply with the antidiscrimination policies of the governments
with which they contract would harm the
foster care system and the children it serves.
Petitioners and amici supporting them seek to
characterize this case as an assault on faith-based
foster care services, but that is simply not so. Amici
Curiae, like the City, respect and value the role that
CSS and other faith-based providers play in facilitating
public services for children in foster care. See Br. City
Resp’ts at 2–3.
This case must be decided within the narrow
context in which it arises: May a private entity that
voluntarily contracts with a government to perform a
delegated, taxpayer-funded public service demand that
it be allowed, based on its religious beliefs, to violate

19
the government’s anti-discrimination policy while
performing that service for the general public? The
answer to that question will have far-reaching
implications not just for children in Philadelphia’s
foster care system, but for any child who benefits from
government services delivered through private
contractors.
Petitioners seek the extraordinary remedy of a
mandatory injunction requiring the City to enter into
a contract to allow CSS to perform a taxpayer-funded
government function while not complying with the
City’s anti-discrimination policy. They must establish,
inter alia, that the balance of equities tips in their
favor and that an injunction is in the public interest.
See Winter v. Nat. Res. Def. Council, Inc., 555 U.S. 7, 20
(2008). Amici Curiae weigh in on these factors because
forcing the City to allow exceptions to its antidiscrimination policy in favor of a religious viewpoint
will harm the foster care system and the children it
serves. It is in the best interest of the public and
children to: 1) have a large pool of loving potential
foster families; 2) have a diverse pool of foster parents;
and 3) avoid the harm that the many LGBTQ youth in
foster care will suffer if foster care agencies have a
right to discriminate against LGBTQ people while
providing public services. The City’s antidiscrimination policy serves those important interests.
Allowing CSS a unilateral contractual exemption
from the City’s neutral anti-discrimination policy sends
a harmful and dangerous message to all children in
foster care—particularly LGBTQ youth—and to
potential foster parents, other foster agencies, and the

20
City’s taxpayers. It harms the integrity of the foster
care program. It tells all Philadelphians that their
government is unable to enforce its anti-discrimination
policies or protect them from discrimination—and that
taxpayer-funded contractors can unilaterally
discriminate against certain families by citing
individual religious beliefs. The City’s taxpayers
certainly have an interest in ensuring that the millions
of dollars in public funds CSS receives each year are
not being used to allow that government contractor to
deny services to some of those very taxpayers. See
Fulton v. City of Philadelphia, 320 F. Supp. 3d 661, 685
(E.D. Pa. 2018) (citing the “legitimate interest in
ensuring that individuals who pay taxes to fund
government contractors are not denied access to those
services”), aff’d, 922 F.3d 140 (3d Cir. 2019). These
public interests served by the City’s anti-discrimination
policy also serve the best interests of the children
Amici Curiae represent.
A. Allowing discrimination against same-sex
couples narrows the pool of prospective
foster parents, harming both the public
and foster children in need of a loving
home.
CSS’s refusal to certify same-sex couples as foster
parents hurts all children because it unnecessarily
narrows the pool of prospective parents. As of 2016,
there were at least 114,000 same-sex couples in the
United States raising children—many of whom became

21
parents through foster care or adoption.2 A January
2019 report estimated that there are 22,340 same-sex
couples in Pennsylvania3 and 4,784 in Philadelphia
County alone.4 Same-sex married couples are nearly 10
times more likely than different-sex married couples to
be raising an adopted or foster child.5 One in five samesex couples (21.4 percent) is raising adopted children
compared to just 3 percent of different-sex couples, and
2.9 percent of same-sex couples have foster children
compared to 0.4 percent of different-sex couples.6 Even
before the Supreme Court’s landmark decision in
Obergefell v. Hodges, 576 U.S. 644 (2015), same-sex
couples were more than three times as likely as

2

SHOSHANA K. GOLDBERG & KEITH J. CONRON, WILLIAMS INST.:
UCLA SCH. OF L., HOW MANY SAME-SEX COUPLES IN THE U.S. ARE
RAISING CHILDREN 1 (July 2018), https://williamsinstitute.law.ucla
.edu/wp-content/uploads/Parenting-Among-Same-Sex-Couples.pdf.
3

Angeliki Kastanis et al., Same-sex Couple and LGBT
Demographic Data Interactive, WILLIAMS INST.: UCLA SCH. OF L.
(Jan. 2019), https://williamsinstitute.law.ucla.edu/visualization/lgb
tstats/?topic=SS&area=42#density (follow “LGBT Demographics”
hyperlink; choose “same-sex couples” option, then click on
Pennsylvania in map).
4

Id. (follow “LGBT Demographics” hyperlink; choose “same-sex
couples” option, then click on Pennsylvania in map, then click “by
county,” then click on Philadelphia County).

5

GARY J. GATES & TAYLOR N. T. BROWN, WILLIAMS INST.: UCLA
SCH. OF L., MARRIAGE AND SAME-SEX COUPLES AFTER OBERGEFELL
4 (2015), https://williamsinstitute.law.ucla.edu/wp-content/uploads
/Marriage-Post-Obergefell-Nov-2015.pdf (detailing substantial
increase in marriages among same-sex couples after Obergefell).
6

GOLDBERG & CONRON, supra note 2 at 1.

22
different-sex couples to have adopted or fostered
children.7
Allowing entities that contract with the City to deny
same-sex couples the opportunity to foster would come
at significant cost not just to the families and children
the City serves, but to the foster care system itself.
Indeed, a pre-Obergefell study concluded that banning
LGBTQ families from the foster care system risked
displacing thousands of children from the system, and
“could add $87 to $130 million to foster care system
expenditures each year”—including millions of dollars
a year for Pennsylvania in particular.8 In short, samesex couples present a tremendous resource of potential
safe and loving homes for children that should not be
alienated by taxpayer-funded discrimination.
The City’s anti-discrimination policy also helps
ensure that services are equally available to LGBTQ
people who self-identify as Catholic and who would be
willing and available to foster. Twenty percent of the
American LGBTQ community identifies as Catholic,
not far behind the 25 percent of the non-LGBTQ

7

Gary J. Gates, Williams Inst.: UCLA Sch. of L., DEMOGRAPHICS

OF MARRIED AND UNMARRIED SAME-SEX COUPLES: ANALYSES OF THE

2013 AMERICAN COMMUNITY SURVEY 7 (2015), https://williamsinstit
ute.law.ucla.edu/wp-content/uploads/Demo-SS-Couples-US-Mar2015.pdf.
8

Gary Gates et al., Adoption and Foster Care by Gay and
Lesbian Parents in the United States, at 19–20 (Ca. Ctr. for
Population Res. On-Line Working Paper Ser. No. CCPR-065-07,
2007), https://escholarship.org/uc/item/3484484b.

23
community that identifies as Catholic.9 And “fully twothirds of American Catholics think it is acceptable for
same-sex couples to raise children, including 43% who
say a gay or lesbian couple with children is just as good
as any other kind of family.”10 See also Br. 27 Lay
Roman Catholics in Supp. of Resp’ts at 23.
Undoubtedly, Catholic LGBTQ families can and do
provide an important additional source of qualified and
loving homes for children needing foster care
placement.
Any action that limits the necessary resource of
qualified foster families harms foster children—the
very persons the foster care program is designed to
assist. Moreover, it jeopardizes children’s right to
constitutionally adequate care. Custody of children in
state-regulated foster care creates a “special
relationship” that triggers substantive due process
rights, including children’s right to constitutionally
adequate care, the right to personal security and
reasonably safe living conditions, and the right to be
free from physical and psychological harm. Nicini v.
Morra, 212 F.3d 798, 808 (3d Cir. 2000) (en banc)
(“[W]hen the state places a child in state-regulated
foster care, the state has entered into a special
relationship with that child which imposes upon it
certain affirmative duties.”); see also M.D. ex rel.
Stukenberg v. Abbott, 907 F.3d 237, 250 (5th Cir. 2018)
9

Frank Newport, LGBT Population in U.S. Significantly Less
Religious, GALLUP (Aug. 11, 2014), https://news.gallup.com/poll/174
788/lgbt-population-significantly-less-religious.aspx.

10

U.S. Catholics Open to Non-Traditional Families, PEW
RESEARCH CTR. (Sept. 2, 2015), https://www.pewforum.org/2015/09
/02/u-s-catholics-open-to-non-traditional-families.

24
(children in foster care have right to “personal security
and reasonably safe living conditions” and are “at
minimum, entitled to protection from physical abuse
and violations of bodily integrity”); Lintz v. Skipski, 25
F.3d 304, 305 (6th Cir. 1994) (“[D]ue process extends
the right to be free from the infliction of unnecessary
harm to children in state-regulated foster homes.”);
Marisol A. ex rel. Forbes v. Giuliani, 929 F. Supp. 662,
675 (S.D.N.Y. 1996) (children in foster care “have a
substantive due process right to be free from
unreasonable and unnecessary intrusions into their
emotional well-being”), aff’d sub nom. Marisol A. v.
Giuliani, 126 F.3d 372 (2d Cir. 1997).
Permitting contract agencies to wield non-merit
factors to exclude same-sex couples or other families to
whom agencies may have a religious objection from the
pool of qualified prospective foster parents would
violate these due process rights of children in foster
care. Allowing discriminatory practices undermines the
availability of suitable family-based settings for
children in foster care and puts youth at increased risk
of institutional placement. These settings not only are
the least preferred under federal child welfare law, but
also are often unable to meet children’s needs.
Restricting available foster family homes would impede
children’s ability to access constitutionally adequate
care.

25
B. Foster children and the general public both
benefit from a broad and diverse pool of
prospective foster parents, including
LGBTQ people.
A parent’s ability to nurture a child’s best interests
is informed by a wide variety of factors, including
financial stability, emotional and physical health, the
quality of family relationships, motives for adoption,
total personality, emotional maturity, and feelings
about children.11
CSS seeks the right to categorically exclude samesex couples from certification as foster parents based
solely on their sexual orientation. But sexual
orientation has no bearing on a parent’s ability to care
for a foster or adopted child—gay and straight people
make equally good parents.12

11

See Joseph Evall, Sexual Orientation and Adoptive Matching,
25 FAM. L.Q. 347, 350–51 (1991).
12

Rachel H. Farr et al., Parenting and Child Development in
Adoptive Families: Does Parental Sexual Orientation Matter?, 14
APPLIED DEVELOPMENTAL SCI. 164, 175 (2010); Nanette Gartrell &
Henny Bos, US National Longitudinal Lesbian Family Study:
Psychological Adjustment of 17-Year-Old Adolescents, PEDIATRICS,
Jul. 2010, at 28, 34–35; see also Perry v. Schwarzenegger, 704
F. Supp. 2d 921, 980 (N.D. Cal. 2010) (“The sexual orientation of
an individual does not determine whether that individual can be
a good parent. Children raised by gay or lesbian parents are as
likely as children raised by heterosexual parents to be healthy,
successful and well-adjusted. The research supporting this
conclusion is accepted beyond serious debate in the field of
developmental psychology.”), aff’d sub nom. Hollingsworth v. Perry,
570 U.S. 693 (2013).

26
As Justice Kennedy described in Obergefell, “many
same-sex couples provide loving and nurturing homes
to their children, whether biological or adopted. . . .
Most States have allowed gays and lesbians to adopt,
either as individuals or as couples, and many adopted
and foster children have same-sex parents.” 576 U.S. at
668 (citations omitted). Justice Kennedy cited this as
“powerful confirmation from the law itself that gays
and lesbians can create loving, supportive families.” Id.
The medical community takes the same position.
According to the American Academy of Pediatrics,
“children and adolescents who grow up with gay and/or
lesbian parents fare as well in emotional, cognitive,
social, and sexual functioning as do children whose
parents are heterosexual” and “there is no evidence
that the development of children with lesbian and gay
parents is compromised in any significant respect
relative to that among children of heterosexual parents
in otherwise comparable circumstances.”13 And
according to a 2020 American Psychological Association
resolution opposing “any discrimination based on
sexual orientation or gender identity/expression in
matters of adoption, child custody and visitation, [and]
foster care,” “there is no scientific evidence that
parenting ineffectiveness is related to parental sexual
orientation or gender identity: sexual and gender
minority parents are as likely as cisgender

13

Ellen C. Perrin & Benjamin S. Siegel, Promoting the WellBeing of Children Whose Parents Are Gay or Lesbian, PEDIATRICS,
Apr. 2013, e1374, at e1377–78, http://pediatrics.aappublications.org/con
tent/pediatrics/131/4/e1374.full.pdf.

27
heterosexual parents to provide supportive and healthy
environments for their children.”14
Many states fail to maintain a sufficient array of
foster families to meet the differing needs of a diverse
population of children in foster care. Indeed, the parties
agree that thousands of children need placement in
stable homes. CSS seeks to participate in the City’s
foster care program while reserving the ability to
categorically exclude a valuable group of qualified
foster parents as caregivers to these children.
But “categorical restrictions” on the pool of foster
parents are likely to “significantly interfere with the
attainment of a permanent family relationship for
parentless children in the state’s care” and “limit[]
children’s opportunity to become part of a stable
family.”15 A 2019 study gathering data from hundreds
of LGBTQ adults who experienced disruptions in the
adoption or foster care process concluded that antiLGBTQ discrimination “may lead some LGBTQ people
to abandon foster care or adoption as a means of

14

AM. PSYCHOLOGICAL ASSOC., APA RESOLUTION ON SEXUAL
ORIENTATION, GENDER IDENTITY (SOGI), PARENTS AND THEIR
CHILDREN 3–4 (2020), https://www.apa.org/about/policy/resolutionsexual-orientation-parents-children.pdf (summarizing research
and resolving that “discrimination against sexual and gender
minority parents deprives their children of benefits, rights, and
privileges enjoyed by children of cisgender, heterosexual married
couples”).
15

See Joseph S. Jackson & Lauren G. Fasig, The Parentless
Child’s Right to a Permanent Family, 46 WAKE FOREST L. REV. 1,
36–37 (2011) (discussing impact of categorical restrictions on pool
of adoptive parents).

28
building their families.”16 The study further concluded
that religious exemptions—such as the ones sought
here by Petitioners—would “only serve to exacerbate
the challenges with delays and disruptions that
LGBTQ prospective parents are already facing—as well
as doing nothing to reduce the number of children
waiting for permanent homes,” and that discrimination
“undermine[s] permanency planning [for youth in
foster care] and ultimately may result in the reduction
of the pool of willing or available LGBTQ” foster and
adoptive parents.17
As the district court held in this case, “DHS and
Philadelphia have a legitimate interest in ensuring
that the pool of foster parents and resource caregivers
is as diverse and broad as the children in need of foster
parents and resource caregivers.” 320 F. Supp. 3d at
685, 703 (E.D. Pa. 2018). And as the Third Circuit
confirmed, the City has a compelling interest in
eradicating discrimination. Fulton v. City of
Philadelphia, 922 F.3d 140, 163–64 (3d Cir. 2019).
Adopting Petitioners’ argument that they be exempt
from the City’s anti-discrimination policy while
receiving public funds to provide services to the general
public would dramatically undermine the rights and
interests of children needing safe and loving homes.

16

Abbie E. Goldberg et al., LGBTQ Individuals’ Experiences with
Delays & Disruptions in the Foster and Adoption Process, 106
CHILDREN & YOUTH SERVS. REV. 1, 2–3, 6–8 (2019).

17

Id. at 9–10.

29
C. Allowing discrimination against same-sex
couples harms the many LGBTQ youth in
foster care.
Petitioners’ challenge particularly undermines the
interests of LGBTQ foster children, who suffer higher
rates of discrimination and emotional, physical, and
sexual abuse while in foster care, and who face worse life
outcomes than their non-LGBTQ peers.18 See also Amicus
Br. of Lambda Legal et al., as Amici Curiae in Supp. of
Resp’ts [hereinafter Lambda Br.]. “These challenges cause
many LGBTQ youth to leave or be kicked out of child
welfare placements only to wind up homeless, funneled
into the juvenile justice system, or both.”19
18

CHILDREN’S RIGHTS, LAMBDA LEGAL, AND CTR. FOR THE STUDY OF
SOC. POL’Y, SAFE HAVENS: CLOSING THE GAP BETWEEN
RECOMMENDED PRACTICE AND REALITY FOR TRANSGENDER AND
GENDER-EXPANSIVE YOUTH IN OUT-OF-HOME CARE 3 (2017),
https://www.lambdalegal.org/sites/default/files/tgnc-policyreport_2017_final-web_05-02-17.pdf [hereinafter Safe Havens];
Allison S. Bohm et al., Challenges Facing LGBT Youth, 17 Geo. J.
Gender & L. 125, 162 (2016) (“Familial rejection is cited as the
primary cause of homelessness among LGBT youth.”).
19

Jordan Blair Woods, Religious Exemptions and LGBTQ Child
Welfare, 103 MINN. L. REV. 2343, 2349 (2019); see also ADMIN. FOR
CHILDREN & FAMILIES, U.S. DEP’T HEALTH & HUMAN SERVS., LOG NO.
ACYF-CB-IM-11-03, LESBIAN, GAY, BISEXUAL, TRANSGENDER AND
QUESTIONING YOUTH IN FOSTER CARE 3 (2011),
https://wwwstage.acf.hhs.gov/sites/default/files/cb/im1103.pdf (federal
government publication recognizing LGBTQ youth at higher risk for
placement instability than their non-LGBTQ peers); AMY DWORSKY ET
AL., MISSED OPPORTUNITIES: PATHWAYS FROM FOSTER CARE TO YOUTH
HOMELESSNESS IN AMERICA 8 (Chapin Hill at the Univ. of Chicago
2019), https://www.chapinhall.org/wp-content/uploads/ChapinHall_VoYC_Child-Welfare-Brief_2019-FINAL.pdf (detailing LGBTQ
youth in foster care’s high risk for experiencing homelessness).

30
LGBTQ youth are disproportionately represented in
the child welfare system.20 And yet “[o]nly 9 percent of
foster families surveyed said they would accept LGBT
youth.”21 Permitting foster care agencies to thwart the
City’s legitimate goal of recruiting as many diverse safe
and loving families as possible would be harmful to the
children the system is created to protect.
Discrimination against same-sex couples does not serve
the best interests of LGBTQ children.
If Philadelphia and other cities and states were
forced to permit government-contracted agencies to
discriminate against same-sex couples based on
individual religious viewpoints, it would also harm
LGBTQ youth in foster care by sending a message that
LGBTQ people are considered unsuitable to provide
loving homes. The rejection same-sex couples suffer
20

Laura Baams et al., LGBTQ Youth in Unstable Housing &
Foster Care, PEDIATRICS, Mar. 2019, e20174211, at 1,
https://pediatrics.aappublications.org/content/pediatrics/143/3/e2
0174211.full.pdf (showing 30.4 percent of youth in foster care
identify as LGBTQ compared to 11.2 percent of youth not in foster
care); FRANK J. BEWKES ET AL., CTR. FOR AM. PROGRESS,
WELCOMING ALL FAMILIES: DISCRIMINATION AGAINST LGBTQ
FOSTER AND ADOPTIVE PARENTS HURTS CHILDREN 4 (2018),
https://cdn.americanprogress.org/content/uploads/2018/11/19131
646/WelcomingAllFamilies.pdf (“Studies have found that between
19 percent and 23 percent of youth in the U.S. foster care system
identify as LGBTQ, meaning that youth are overrepresented in the
foster care system by at least a factor of two.”).
21

Sarah Warbelow, LGBT Youth Legal Landscape, 23 TEMP. POL.
& C.R. L. REV. 413, 427 (2014) (citation omitted); see also Bohm et.
al, supra note 18, at 162; Safe Havens, supra note 18, at 3 (“[W]hile
LGBT+ comprise about 5–7% of the overall youth population, they
make up almost one-fourth of those in the foster care
system . . . .”).

31
when being turned away from a foster care agency
trickles down to LGBTQ youth and perpetuates a cycle
of stigmatic harm. See Lambda Br.
Forcing the City to allow agencies to discriminate
would send a loud and powerful message that LGBTQ
people are not valued and that the City is unable to
protect them from discrimination. That dangerous
message will undoubtedly make LGBTQ youth fearful
of coming out, of realizing their identity, and of being
rejected by the very providers on whom they depend.
See Lambda Br. Casting LGBTQ people as “other” or
unworthy would violate LGBTQ youth’s right to equal
treatment under the law as compared to their nonLGBTQ peers. Id.; see also Masterpiece Cakeshop, Ltd.
v. Colo. Civil Rights Comm’n, 138 S. Ct. 1719, 1727
(2018) (citing “community-wide stigma inconsistent
with the history and dynamics of civil rights laws that
ensure equal access to goods, services, and public
accommodations” if a free exercise exception to antidiscrimination laws “were not confined”).
As numerous courts have recognized, stigmatic
harm “constitutes an injury in fact.” Dumont v. Lyon,
341 F. Supp. 3d 706, 720 (E.D. Mich. 2018) (citation
omitted); see also, e.g., Heckler v. Mathews, 465 U.S.
728, 739 (1984); Pietrangelo v. Refresh Club, Inc., No.
18-cv-1943 (DLF), 2019 WL 2357379, at *5 (D.D.C.
Jun. 4, 2019). “Discrimination is not simply dollars and
cents, hamburgers and movies; it is the humiliation,
frustration, and embarrassment that a person must
surely feel when he is told that he is unacceptable as a
member of the public. . . .” Heart of Atlanta Motel, Inc.
v. United States, 379 U.S. 241, 292 (1964) (Goldberg, J.,

32
concurring). Granting a constitutional exemption from
the City’s anti-discrimination policy and requiring the
government to permit discrimination based on sexual
orientation would only further that stigmatic harm.
II. Abandoning Smith would invite challenges to
all manner of anti-discrimination laws and
policies, increasing the risk of harm to
children.
Amici Curiae agree with Respondents and others
that this Court should not, and need not, revisit Smith
(see Br. City Resp’ts at 47; see also Br. United States as
Amicus Curiae Supp. Pet’rs at 9, 11), and that even if
strict scrutiny were to apply, the City’s actions are
valid (see Br. City Resp’ts at 47; Br. Intervenor–Resp’ts
at 44 & n.14). Amici Curiae leave for others to discuss
in depth the neutrality and general applicability of the
City’s anti-discrimination policy. Amici are concerned,
however, about the broad and negative impact a
decision to revisit Smith would have not only on
children in the foster care system, but also on all
children who benefit from government-funded public
services provided under government contracts.
Smith provides the proper framework in which to
analyze this case. If a challenged law or policy is
neutral and generally applicable, then it should not be
subject to strict scrutiny. Religious views in this
country vary widely, particularly when it comes to
marriage and raising children. Neutral government
policies that prohibit discrimination against parents on
the basis of sexual orientation (or numerous other
factors, including race) may not align with a specific
religious viewpoint for a variety of reasons that may

33
well differ from one group to another. See Smith, 494
U.S. at 888. Implementing strict scrutiny based on an
alleged burden on one religious viewpoint would open
a wide door for challenges to “almost every conceivable
kind” of neutral law allegedly impacting the free
exercise of a particular religion, see id. at 888–89,
inviting discrimination even among competing religious
views about families and child-rearing. This would
invite a wide swath of challenges to laws protecting
children and LGBTQ people from discrimination, and
for the same reasons articulated above would harm the
children for whom Amici Curiae advocate. The Court
should decline to revisit Smith.
CONCLUSION
Amici Curiae speak on behalf of thousands of
children across the country who go to sleep at night
yearning for safe and loving homes. Amici Curiae
support the involvement of all willing and qualified
child welfare agencies seeking to facilitate foster care
placements in the best interests of children. But
permitting any government-contracted agency to
discriminate, contrary to the government’s own
policies, against LGBTQ people for religious reasons or
otherwise harms the very children the foster care
system is designed to protect. Such discrimination also
directly undermines the “constellation of benefits”
guaranteed to LGBTQ people. Obergefell, 576 U.S. at
670. The Court should affirm.

34
Respectfully submitted,
KENDYL T. HANKS
Counsel of Record
ELIZABETH “HEIDI” BLOCH
NICOLE LEONARD CÓRDOBA
GREENBERG TRAURIG, LLP
300 West 6th Street, Suite 2050
Austin, Texas 78701
(512) 320-7200
hanksk@gtlaw.com
Counsel for Amici Curiae
August 20, 2020

